         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Needs Better Agency-Wide 

       Controls Over Staff Resources 


       Report No. 11-P-0136 


       February 22, 2011

Report Contributors:                           Chris Baughman
                                               Christine El-Zoghbi
                                               Kate Kimmel
                                               Russell Moore
                                               Eric Lewis
                                               Elizabeth Grossman




Abbreviations

EPA          U.S. Environmental Protection Agency
FMFIA        Federal Managers’ Financial Integrity Act
FTE          Full-time equivalent
GAO          U.S. Government Accountability Office
LLWP         Local-Level Workforce Plan
OARM         Office of Administration and Resources Management
OCFO         Office of the Chief Financial Officer
OHR          Office of Human Resources
OIG          Office of Inspector General
OMB          Office of Management and Budget
ORBIT        OCFO Reporting and Business Intelligence Tool
                       U.S. Environmental Protection Agency 	                                              11-P-0136
                                                                                                    February 22, 2011
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review
                                  EPA Needs Better Agency-Wide Controls Over
Federal law (Title 5 United       Staff Resources
States Code Section 2301,
Merit System Principles)           What We Found
intends that the U.S.
Environmental Protection          EPA does not enforce a coherent program of position management to assure the
Agency (EPA) use its              efficient and effective use of its workforce. While some organizational elements
workforce efficiently and         have independently established programs to control their resources, there is no
effectively. From 1982 to         Agency-wide effort to ensure that personnel are put to the best use. Prior to April
2010, EPA had a position          2010, EPA had the Position Management and Control Manual, which required an
management program that           Agency-wide program. However this manual was not enforced and in April 2010
provided a means to ensure        it was cancelled without replacement. According to the cancellation memorandum,
compliance with this intent.      the manual was eliminated because Office of Administration and Resources
We reviewed EPA’s position        Management (OARM) officials believed EPA had other mechanisms in place to
management program to             appropriately manage and control its positions. However, the other mechanisms do
evaluate its effectiveness.       not provide similar effects, controls, or documentation. Without an Agency-wide
                                  position management program, EPA leadership lacks reasonable assurance that it
Background                        is using personnel in an effective and efficient manner to achieve mission results.

Position management provides       What We Recommend
the operational linkage
between human capital goals       We recommend that the Assistant Administrator for Administration and Resources
and the placement of qualified    Management establish an Agency-wide workforce program that includes controls
individuals into authorized       to ensure regular reviews of positions for efficiency, effectiveness, and mission
positions. Over the last          accomplishment.
5 years, EPA has averaged a
little over 18,000 positions in   The Assistant Administrator for Administration and Resources Management
its organizational structure.     neither agreed nor disagreed with the recommendation in his comments. However,
Historically, EPA’s personnel     the refined local-level workforce plan process could be responsive if EPA
strength has remained stable      established effective oversight and accountability for it. The Deputy Director,
regardless of budget increases    Office of Human Resources, stated the Agency would ensure that program and
or decreases.                     regional offices prepared the local-level workforce plans for use in the budget
                                  process. However, OARM did not have the authority to require the program and
                                  regional offices to make any staffing changes based upon the results of the local-
For further information,          level workforce plans. OARM does not currently provide the information to the
contact our Office of
Congressional, Public Affairs
                                  Administrator for decisionmaking purposes, but will provide it if requested.
and Management at                 Adequate Agency management controls should ensure the timely and thorough
(202) 566-2391.                   completion of the plans by each regional and program office, and timely
                                  distribution to the Administrator and Deputy Administrator to determine whether
The full report is at:            staffing changes are necessary. The recommendation is unresolved pending the
www.epa.gov/oig/reports/2011/
20110222-11-P-0136.pdf            Agency’s 90-day response.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                              THE INSPECTOR GENERAL



                                        February 22, 2011

MEMORANDUM

SUBJECT:	             EPA Needs Better Agency-Wide Controls Over Staff Resources
                      Report No. 11-P-0136


FROM:	                Arthur A. Elkins, Jr.
                      Inspector General

TO:	                  Craig E. Hooks, Assistant Administrator
                      Office of Administration and Resources Management


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days and expenses
by the applicable daily full cost billing rates in effect at the time, is $459,017.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Please consider our response to your comments and provide a
final response, with milestone dates as appropriate. Your response will be posted on the OIG’s
public website, along with our memorandum commenting on your response. Your response
should be provided as an Adobe PDF file that complies with the accessibility requirements of
section 508 of the Rehabilitation Act of 1973, as amended. The final response should not contain
data that you do not want to be released to the public; if your response contains such data, you
should identify the data for redaction or removal. We have no objections to the further release of
this report to the public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
202-566-0832 or najjum.wade@epa.gov, or Eric Lewis at 202-566-2664 or lewis.eric@epa.gov.
EPA Needs Better Agency-Wide Controls                                                                                       11-P-0136
Over Staff Resources



                                  Table of Contents 


Chapters
   1    Introduction .......................................................................................................       1


                Purpose .......................................................................................................    1     

                Background ................................................................................................        1     

                Scope and Methodology ..............................................................................               3     


   2    EPA Should Strengthen Controls for Managing Its Workforce .....................                                            5


                EPA Has No Functioning Agency-Level Position Management Program ...                                                5

                EPA Cancelled Its Position Management Directive ....................................                               7

                Noteworthy Management Practices Not Incorporated at Agency Level ......                                            8

                Conclusion ..................................................................................................      9     

                Recommendation .......................................................................................             9     

                Agency Comments and OIG Evaluation .....................................................                           9


   Status of Recommendations and Potential Monetary Benefits..............................                                        11 




Appendices
   A    Prior OIG Reports Identifying Position Management Problems ....................                                           12


   B    OIG-Identified Management Practices Supporting Position Management ...                                                    16 


   C    Agency Response to Draft Report ...................................................................                       17


   D    Distribution ........................................................................................................     28 

                                  Chapter 1

                                   Introduction
Purpose
            A position is defined as the duties and responsibilities that constitute the work
            performed by an employee. Position management provides the operational linkage
            between human capital goals and the placement of qualified individuals into
            authorized positions. The U.S. Environmental Protection Agency (EPA) Office of
            Inspector General (OIG) reviewed EPA’s position management program with the
            objective of evaluating the program’s effectiveness.

Background
            Historically, EPA’s personnel strength has remained stable regardless of budget
            increases or decreases. As shown in Table 1, there was a substantial increase in
            the enacted budget for fiscal year 2010 without a similar increase in full-time
            equivalents (FTEs). FTEs are calculated by dividing the number of hours worked
            by the number of compensable hours in the year. The number of EPA positions
            (i.e., employees) is generally over 18,000. Because some employees work part-
            time, or for only part of a year, the FTEs are less than the number of employees.

            Table 1: Enacted Budgets, FTEs, and Number of Employees, Fiscal Years 2006-2010
                               Enacted Budgets                           Number of Employees
              Fiscal Year         (in billions)            FTEs          at Start of Fiscal Year
                  2006                $7.7                17,631                 18,461
                  2007                 7.7                17,560                  18,327
                  2008                 7.5                17,324                  18,109
                  2009                 7.6                17,252                  18,306
                  2010                10.3                17,417 (est.)          18,518
            Source: Fiscal 2011 EPA Budget in Brief for the FTEs and enacted budget amounts;
            OHR for the number of employees.

            Federal Requirements

            Federal law (Title 5 United States Code Section 2301, Merit System Principles)
            intends that the federal work force be used efficiently and effectively. The Office
            of Personnel Management provides government-wide leadership and direction in
            managing the federal workforce. In the August 2009 version of its Introduction to
            the Position Classification Standards, the Office of Personnel Management
            defines good position management as a carefully designed organization structure
            that blends the skills and assignments of employees with the goal of successfully
            carrying out the organization’s mission. A carefully designed position structure
            will result in reasonable and supportable grade levels. Managers and supervisors


11-P-0136                                                                                       1
            are responsible for assuring a sound position structure in the organizations they
            lead. Achieving an economical and effective position structure is critical to the
            proper and responsible use of limited financial and personnel resources.

            Agency Implementation

            EPA’s most recent Agency-wide directive on position management was the
            January 1982 Position Management and Control Manual, or the 3150 Manual.
            It stated that position management is the process by which duties and
            responsibilities are grouped to form positions, and positions are grouped to form
            organizations. The intent of position management is to accomplish the assigned
            mission as effectively and economically as possible. The 3150 Manual designated
            the Assistant Administrator for Administration (now the Assistant Administrator
            for Administration and Resources Management) as the EPA position management
            officer responsible for:

                  Providing guidance in the effective conduct of the position management
                   program
                  Evaluating management attention to the position management program
                  Reporting on the effectiveness of the position management program to the
                   Administrator

            The 3150 Manual identified numerous objectives, or benefits, of using position
            management principles. The first of these was establishing a minimum number of
            positions to accomplish the Agency’s mission; the second was achieving a
            minimum total cost for all positions. The 3150 Manual provided criteria to
            determine the need for first-line supervisory positions; second-line supervisory
            positions; deputy positions; and special positions such as associate, assistant,
            special assistant, and similar staff positions. In addition, among other things, it
            required:

                  An annual review (and related certification) of the need for all positions
                  A review of each vacant position and a determination as to whether duties
                   may be reassigned or the position may be abolished without seriously
                   affecting the execution of essential functions
                  A review of position structures at least annually for need of each position
                   and conformance to policy objective
                  Position management training for all supervisors as part of, or as a
                   supplement to, the training required for all first-line supervisors

            The Associate Director of the Office of Human Resources (OHR) within the
            Office of Administration and Resources Management (OARM) told the OIG at
            the beginning of the field work for this assignment that OARM had decided to
            cancel the 3150 Manual. Before doing so, OHR had analyzed the manual to
            determine what elements might be useful for a future order addressing position
            management. Despite several requests from the OIG, OARM never produced this


11-P-0136                                                                                       2
            analysis. In a memorandum dated April 2, 2010, the Acting Director, OHR,
            canceled the 3150 Manual. According to this memorandum, EPA had other
            mechanisms in place to appropriately manage and control its positions; OHR
            could not see any operational or policy barriers to eliminating it. On June 11,
            2010, OARM confirmed to the OIG that it did not have the analysis determining
            elements for inclusion in a future order. (See Scope and Methodology section for
            the related scope impairment statement.)

            Related Internal Control Requirements

            Besides the requirements specific to position management that were in the 3150
            Manual, EPA must comply with a variety of more general requirements about
            internal controls. These include:

               	 Federal Managers’ Financial Integrity Act (FMFIA) requires agencies
                  to establish internal accounting and administrative controls that comply
                  with standards established by the Comptroller General. It also requires an
                  annual evaluation (and related statement) on whether the agency’s internal
                  controls comply with specified standards and, if not, requires the agency
                  to identify material weaknesses and plans to correct them.

               	 Office of Management and Budget (OMB) Circular A-123,
                  Management’s Responsibility for Internal Control, implements FMFIA.
                  OMB Circular A-123 states that the internal control activities developed and
                  maintained by management must comply with standards related to control
                  environment, risk assessment, control activities, information and
                  communication, and monitoring. Additionally, it specifies requirements for
                  conducting assessments of internal controls.

               	 EPA Records Management Policy (CIO 2155.1) implements the Federal
                  Records Act of 1950, which requires all federal agencies to make and
                  preserve records that document their organization, function, policies,
                  decisions, procedures, and essential transactions. These records are public
                  property and must be managed according to applicable laws and
                  regulations. Thus, among other things, EPA must create, receive, and
                  maintain official records providing adequate and proper evidence of
                  Agency activities. Such records would include documentation of position
                  management program activities.

Scope and Methodology
            We conducted this review from December 2009 through August 2010. We
            conducted our work in accordance with generally accepted government auditing
            standards issued by the Comptroller General of the United States. Those standards
            require that we plan and perform the review to obtain sufficient, appropriate
            evidence to provide a reasonable basis for our findings and conclusions based on



11-P-0136                                                                                        3
            our objectives. We believe the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives. We assessed internal
            controls in EPA over position management.

            We interviewed employees from each EPA regional and program office about
            their organizations’ position management programs and activities. We also
            requested, obtained, and reviewed related documentation, as needed. We
            interviewed staff in OARM about activities related to managing positions EPA-
            wide, other activities that might address position management requirements, and
            information systems. We also interviewed staff from the Office of the Chief
            Financial Officer (OCFO) concerning financial activities and information
            systems.

            In addition to the interviews, we reviewed various EPA criteria, background, and
            guidance documents; position management guidance of other federal
            organizations; files on EPA reorganizations from 2006 to the present; and recently
            issued OIG reports for position management implications. We obtained EPA
            information (which we did not verify) related to budgets, costs, FTEs, employee
            appointments, and number of employees; and we examined various EPA
            information systems.

            Scope Impairment

            We had a scope impairment for this project because the Agency failed to respond
            to the OIG’s request for information in a timely manner. Specifically, during the
            entrance conference on April 8, 2010, the OIG requested a copy of the analysis
            that the Agency stated that it had conducted to assess which elements of the 3150
            Manual might be useful for a future Agency order addressing position
            management. After several additional requests from the OIG, the Agency reported
            on June 11, 2010, that it did not have the analysis.

            Prior OIG Reports

            In the last 2 years, the OIG issued 12 reports that identified problems with
            matching EPA staff to the work performed. In three cases, the OIG found that
            EPA had not assigned the appropriate number of staff. In eight cases, the OIG
            found that EPA had assigned staff that needed different skills or better training. In
            one case, the OIG found that EPA had not appropriately assigned responsibilities.
            Details on these reports are in appendix A.




11-P-0136                                                                                       4
                                  Chapter 2

                EPA Should Strengthen Controls 

                  for Managing Its Workforce 

            EPA does not enforce a coherent program of position management to assure the
            efficient and effective use of its workforce. While some organizational elements
            have independently established programs to control their resources, there is no
            Agency-wide effort. Prior to April 2010, EPA had the Position Management and
            Control Manual, which required an Agency-wide program. However, this manual
            was not enforced and in April 2010 it was cancelled without replacement.
            According to the cancellation memorandum, the manual was eliminated because
            OARM officials believed EPA had other mechanisms in place to appropriately
            manage and control its positions. However, the other mechanisms do not provide
            similar effects, controls, or documentation. Without an Agency-wide position
            management program, EPA leadership lacks reasonable assurance that it is using
            personnel in an effective and efficient manner to achieve mission results.

EPA Has No Functioning Agency-Level Position Management
Program
            EPA has no Agency-wide program to manage its positions. Some of the 22
            program offices and regions surveyed performed some activities to manage their
            positions. However, the nature of these activities and a consistent lack of
            documentation did not provide sufficient evidence that positions were efficiently
            and effectively managed in a consistent manner throughout the Agency.

            While it was in effect, the 3150 Manual was not enforced at the Agency level.
            The 3150 Manual designated the Assistant Administrator, OARM, as the Agency
            Position Management Officer, responsible for providing guidance on the effective
            conduct of the position management program, evaluating management attention to
            position management, and reporting on the effectiveness of the position
            management program to the Administrator.

            OARM did not perform any of these required activities. OARM had not
            performed Agency-wide annual reviews to determine whether it had the right
            employees in terms of both number and skill sets to accomplish the mission, given
            budget constraints. Additionally, OARM did not require regions and program
            offices to conduct an annual certification of the need for their positions as
            required in the 3150 Manual. This certification would provide OARM with
            documentation that managers deemed all positions under their purview to be
            necessary for mission completion.




11-P-0136                                                                                       5
            Because OARM did not enforce or comply with the 3150 Manual, most EPA
            regions and program offices had limited and varying approaches to position
            management. Generally, regional and program office human resource
            representatives told the OIG that they managed positions based on FTE allocation
            and payroll budget, or as part of hiring and reorganization processes. These
            activities cover some aspects of position management, but do not meet the intent
            of the 3150 Manual. For example, most regional and program offices told the OIG
            that when a position was left vacant, they evaluated whether the position should
            be filled again and, if so, at what grade level.

            Hiring and reorganization policies and procedures support some of the policy
            goals identified in the 3150 Manual. Offices at EPA must complete a
            reorganization packet if they wish to change their office’s organizational
            structure. Included in this packet are proposed staffing plans and organization
            charts. However, hiring and reorganization affect only a limited number of EPA
            positions each year. For example, in Fiscal Year 2009, about 11 percent of
            positions were impacted by reorganizations and 5 percent by hiring. That left
            significant portions of EPA positions without regular review or management.

            Additionally, few program or regional offices maintained records of their limited
            position management activities. For example, 11 of 22 offices claimed to have
            procedures to ensure the effective and economic use of their staff. Of those 11, only
            5 could produce documentation of procedures and adherence to them. Documenting
            Agency activities is required under the EPA Records Management Policy.

            There was also limited enforcement of other Agency activities that are associated
            with position management. The Acting Deputy Director, OHR, noted that the
            “14/15 ceiling,” an OCFO-directed cap on the number of GS-14 and GS-15 level
            employees that each organization can hire, drives position management. However,
            this driver of position management is unevenly and sometimes not at all applied
            across EPA offices. Some regions and program offices operated under a set 14/15
            ceiling, while others believed their organization had no such ceiling.

            In interviews conducted by the OIG, the Acting Deputy Director, OHR, expressed
            reluctance to establish a centralized control structure over Agency-level human
            resources programs like position management. Instead, the OHR Shared Service
            Center liaison described OARM’s role in position management as advisory and
            consultative. Further, the Acting Deputy Director and Shared Service Center
            liaison, OHR, considered the position management program obsolete, overtaken
            by more current initiatives on human capital.

            Limited and varying position management activities that generally lack
            documentation constitute a weak control environment contrary to the intent of
            FMFIA and OMB Circular A-123. The Agency’s weak control environment for
            position management does not provide a reasonable assurance that EPA staff
            resources are being effectively managed.



11-P-0136                                                                                     6
EPA Cancelled Its Position Management Directive
            On April 2, 2010, EPA cancelled the 3150 Manual, its written procedure on
            managing the workforce to accomplish the assigned mission as effectively and
            economically as possible. OARM staff believed position management was
            adequately addressed by other activities. However, the basis for that belief is
            undocumented.

            On December 2, 2009, the Acting Deputy Director, OHR, stated that the FTE
            allocation process, workforce planning, and classification are the three parts of
            position management. However, EPA’s cancellation order, signed by the Acting
            Director, OHR, stated that OHR staff believed budgeting, strategic workforce
            planning, and strategic succession planning mechanisms allow it to appropriately
            manage and control positions. Further, OARM did not provide analysis or
            documentation of how these mechanisms allow it to appropriately manage and
            control positions. As described below, alternate activities do not provide similar
            effects, controls, or documentation as those provided by the process required by
            the 3150 Manual, or provide assurance that the workforce is being used efficiently
            and effectively.

            Budgeting. The primary link between the budget process and position management
            is FTE allocation and the associated payroll limits for each office. OCFO sets FTE
            ceilings internally for each of the program and regional offices according to past
            FTE use and any shifts in program needs indicated by the national program
            managers. After funds are appropriated, FTE allocations are distributed to
            individual program and regional offices. Each office then allocates the FTEs within
            its organization. Our evaluation showed no appreciable link between this process
            and a review of positions for efficiency, effectiveness, and mission
            accomplishment. By her approval of the EPA 3150 cancellation memorandum, the
            Acting Director, OHR, contended that budgeting allows EPA to appropriately
            manage and control positions. However, budgeting processes only provide controls
            to maintain fiscal restraint rather than an active management of positions and staff
            resources. In other words, staying within specified budget targets does not
            necessarily ensure effective and efficient use of personnel.

            Workforce planning. EPA’s workforce planning is composed of four primary
            elements: (1) demand, i.e., staff needed; (2) supply inventory, i.e., staff available;
            (3) gap analysis, i.e., the difference between the demand and supply; and (4)
            strategies and solutions. EPA’s latest Strategic Workforce Plan was written in
            2006. It analyzed projected workforce trends through 2008. The Agency’s
            intention was to update the plan during fiscal year 2007; as of June 2010, it had
            not been updated. Furthermore, although strategic workforce planning addresses
            development of the workforce, it does not ensure the effective and economic use
            of personnel. Therefore, while workforce planning theoretically allows EPA to
            plan for positions, the Strategic Workforce Plan does not assure that the
            workforce is being managed efficiently and effectively.


11-P-0136                                                                                        7
             Succession planning. EPA’s strategic succession planning is focused on
             developing leadership in the Agency in the face of an aging workforce. This goal
             is designed to help ensure future staffing of key positions. However, EPA’s most
             recent succession plan, EPA’s Plan for Strategic Leadership Succession
             2006/2007, addresses none of the goals or processes of a position management
             program. By approving the EPA 3150 cancellation memorandum, the Acting
             Director, OHR, claimed that succession planning allows the Agency to
             appropriately manage and control positions. However, we determined that the
             contribution of succession planning to the effective and efficient use of staff
             resources is minimal.

             EPA cannot effectively manage staff resources without guidance and controls. In
             2009, the U.S. Government Accountability Office (GAO) made the following
             observation:

                    EPA has struggled for several years to identify its needs for human
                    resources and to deploy its staff throughout the country in a
                    manner that would do the most good. We found that EPA’s process
                    for budgeting and allocating resources does not fully consider the
                    agency’s current workload, and that in preparing requests for
                    funding and staffing, EPA makes incremental adjustments, largely
                    based on an antiquated workforce planning system that does not
                    reflect a bottom-up review of the nature or distribution of the
                    current workload.

             GAO further concluded that staffing at regional offices has been “driven primarily
             by historical staffing patterns rather than a fresh assessment of regional needs.”1
             In response to calls from GAO and the union to conduct a workforce analysis, the
             former Deputy Assistant Administrator, OARM, stated that EPA’s workforce
             would probably not grow significantly over the next few years, but the Agency
             will reshape the workforce as new environmental issues arise. She acknowledged
             that the Agency should look for better ways to manage staff. These statements
             reinforce the need for a viable Agency-level position management program. Other
             federal organizations enforce their position management programs and the Office
             of Personnel Management advocates such programs.

Noteworthy Management Practices Not Incorporated at Agency Level
             There are some position management activities among the regional offices that
             the OIG thought demonstrated good management practices (appendix B). Regions
             1 and 10 both maintain strong position management programs, including
             published guidance, position management training for supervisors, and
             documentation of position management activities. These programs help Regions 1
             and 10 managers allocate staff for effective use. Some offices have developed
1
 GAO Report GAO-09-434, ENVIRONMENTAL PROTECTION AGENCY Major Management Challenges,
March 2009


11-P-0136                                                                                       8
            unique, stand-alone information management systems to assist them in tracking
            and understanding their positions. However, these management practices have not
            been incorporated into an effective Agency-level position management program.

Conclusion
            EPA lacks reasonable assurance that program and regional offices are employing
            their staff resources effectively and efficiently. Effective resource management is
            essential to accomplish EPA’s mission to protect human health and the
            environment. EPA lacks an Agency-level program for effectively managing
            positions to assist in accomplishing its strategic goals and initiatives. Managing
            positions in a coherent and consistent program would provide EPA leadership
            with the tools it needs to make informed decisions about staff resources. Such a
            program would also assure Agency management that the workforce was used
            efficiently and effectively.

Recommendation
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1.	 Establish an Agency-wide workforce program that includes controls to
                   ensure regular reviews of positions for efficiency, effectiveness, and
                   mission accomplishment.

Agency Comments and OIG Evaluation

            In the December 30, 2010, response to the draft report (which is attached as
            appendix C), the Assistant Administrator for Administration and Resources
            Management did not state whether he agreed or disagreed with our
            recommendation. During the exit conference, the Deputy Director, OHR, said the
            Agency agreed with the intent of the recommendation, but did not agree with our
            proposed implementation. The OIG recommendation did not include an
            implementation plan.

            The OARM response asserted that the following OHR initiatives, in concert with
            the budget process, would achieve the intent of our recommendation:

                 Updated local-level workforce plans (LLWPs) and a refined LLWP
                  process.
                A section of EPA’s Strategic Plan for fiscal years 2011–2015,
                  “Strengthening EPA’s Workforce Capabilities.”
               	 Guidance (currently under development) for program and regional offices
                  documenting the key roles and responsibilities in the position
                  classification process.



11-P-0136                                                                                     9
            Of the three initiatives offered, the proposed LLWP process has the potential to be
            responsive to our recommendation if implemented effectively. The 2006
            memorandum transmitting the Strategic Workforce Plan noted that the LLWP will
            be used by EPA leaders to:

                  Direct their human resources to properly align with EPA goals;
                  Conduct analyses to ensure the organization is appropriately structured;
                  Use recruitment, development and other workforce strategies to address
                   needs; and
                  Ensure their workforce activities lead to successful accomplishment of
                   EPA’s mission.

            We reviewed EPA’s LLWP process. As implemented, it did not adequately
            ensure regular reviews of positions for efficiency, effectiveness, and mission
            accomplishment across EPA. Before 2009, OHR’s Office of Human Capital
            Planning requested that regional and program offices submit LLWPs to their
            office. They received LLWPs from about half of the offices. In 2009, the Office
            of Human Capital Planning changed the process. OHR began providing the
            regional and program offices with information developed from PeoplePlus for the
            LLWPs, and asking them to verify the information. During the exit conference, a
            representative from the Office of Human Capital Planning said that for the next
            round of data collection, they would be working with regional and program
            offices to complete LLWPs for use in the budget process.

            The LLWP could be a good tool to review positions for efficiency, effectiveness,
            and mission accomplishment if implemented effectively. However, EPA must
            establish effective oversight and accountability for the LLWP process at regional
            and headquarters levels. During the exit conference, the Deputy Director, OHR
            stated that they would ensure that program and regional offices prepared the local-
            level workforce plans for use in the budget process. However, OARM did not
            have the authority to require the program and regional offices to make any
            staffing changes based upon the results of the local-level workforce plans. We
            subsequently clarified that OARM does not currently provide the information to
            the Administrator for decisionmaking purposes, but will provide it if requested.
            We believe that adequate Agency management controls should ensure the timely
            and thorough completion of the plans by each regional and program office, and
            timely distribution to the Administrator and Deputy Administrator to determine
            whether staffing changes are necessary.

            The recommendation is unresolved. We ask management to review and consider
            our comments in its response to our final report.




11-P-0136                                                                                     10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                    Planned
    Rec.    Page                                                                                                   Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1        Action Official             Date      Amount      Amount

     1        9     Establish an Agency-wide workforce program that          U       Assistant Administrator for
                    includes controls to ensure regular reviews of                      Administration and
                    positions for efficiency, effectiveness, and mission              Resources Management
                    accomplishment.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-P-0136                                                                                                                                         11
                                                                                             Appendix A

                       Prior OIG Reports Identifying
                      Position Management Problems

EPA Needs a Coordinated Plan to Oversee Its Toxic Substances Control Act Responsibilities,
Report No. 10-P-0066, February 17, 2010
                           Report Excerpt                                           OIG Comment
Enforcement resources are not commensurate with the scope of work.         The number of staff assigned
The number of inspectors is declining and their allocation is not          was not correct.
determined by potential risks. Over the course of the Core Toxic
Substances Control Act program, the Office of Enforcement and
Compliance Assurance has shifted responsibility for conducting
inspections among regions; the Office of Enforcement and Compliance
Assurance headquarters; the Core Toxic Substances Control Act
Enforcement Center in Denver, Colorado; and combinations thereof.
During the last resource shift in 2001, regions were offered the
responsibility for ensuring compliance. Only Regions 2, 4, and 5
assumed responsibility for Core Toxic Substances Control Act
enforcement, while the Office of Enforcement and Compliance
Assurance headquarters and the Core Toxic Substances Control Act
Enforcement Center assumed responsibility for the remaining seven
regions. This dispersed responsibility has led to an inconsistent
approach and process that hinders effective oversight.
EPA Can Improve Its Preparation and Use of Independent Government Cost Estimates for
Superfund Contracts, Report No. 10-P-0065, February 16, 2010
                           Report Excerpt                                           OIG Comment
Superfund program staff involved in the cost estimating process            The assigned staff needed
informed us that training relating to independent government cost          different or additional skills.
estimates has been minimal within the last 10 years. EPA does not
have a specific training course for independent government cost
estimates. Project Officers receive some independent government cost
estimates training as part of their Contracting Officer Representative
training. However, independent government cost estimates make up
only a few pages of the training text.

Additionally, some employees were not aware of the guidance and tools
available to assist in preparing independent government cost estimates.
For example, the Office of Superfund Remediation and Technology
Innovation developed a cost estimating toolbox. It provides
comprehensive information for staff to use when preparing independent
government cost estimates for remedial action contracts. Six of the nine
remedial action contract project officers/work assignment managers
interviewed were not aware of the toolbox. This toolbox is of little use
for those employees who are not aware it exists.




11-P-0136                                                                                                    12
Self-reported Data Unreliable for Assessing EPA’s Computer Security Program, Report No.
10-P-0058, February 2, 2010
                             Report Excerpt                                            OIG Comment
Sixty-eight percent of respondents believed they had not been educated        The assigned staff needed
on how to fully assess the National Institute of Standards and                different or additional skills.
Technology 800-53 security controls in Automated System Security
Evaluation and Remediation Tracking.

Forty-seven percent of respondents believed more training is needed
when EPA introduces newer versions of the Automated System
Security Evaluation and Remediation Tracking system.
EPA Needs to Improve Continuity of Operations Planning, Report No. 10-P-0017, October 27, 2009
                             Report Excerpt                                            OIG Comment
EPA’s continuity training and exercises do not sufficiently prepare or        The assigned staff needed
assess the Agency’s ability to provide its essential services during a        different or additional skills.
significant emergency. EPA’s training scenarios primarily test
equipment, communication systems, and access to records.

EPA training scenarios lack a comprehensive focus. . . . Few training
scenarios required a complete deployment of resources and used
minimal staff at the alternative site.
EPA Needs a Better Strategy to Identify Violations of Section 404 of the Clean Water Act, Report
No. 10-P-0009, October 26, 2009
                             Report Excerpt                                            OIG Comment
In part because of its limited field presence, all of the regions             The number of staff assigned
interviewed primarily relied on complaints, tips, and referrals to learn      was not correct.
about Clean Water Act section 404 violations.
EPA’s Office of Research and Development Could Better Use the Federal Managers’ Financial
Integrity Act to Improve Operations, Report No. 09-P-0232, September 15, 2009
                             Report Excerpt                                            OIG Comment
Office of Research and Development personnel gain knowledge of                The assigned staff needed
FMFIA and internal controls largely through on-the-job-training and did       different or additional skills.
not receive sufficient additional training on evaluating internal controls.
Inadequate understanding of the internal control process resulted in the
Office of Research and Development relegating FMFIA to a yearly
administrative reporting activity. Office of Research and Development
managers and staff responsible for FMFIA receive no training on GAO’s
five internal control standards or how to ensure research programs
meet standards.




11-P-0136                                                                                                       13
EPA Should Use FMFIA to Improve Programmatic Operations, Report No. 09-P-0203, August 6,
2009
                            Report Excerpt                                           OIG Comment
Advisors we interviewed had a range of training experience on FMFIA         The assigned staff needed
requirements. The majority of advisors (four of seven) we interviewed       different or additional skills.
believed they could benefit from additional training, especially on
internal control standards and programmatic reviews.

OCFO said its validation strategy does not include validating the
content and accuracy of offices’ assurance letters. . . . To date, OCFO
has limited resources to oversee annual FMFIA reporting on
programmatic elements, and OCFO considers its staffing levels
adequate.
Steps Taken But More Work Needed to Strengthen Governance, Increase Utilization, and Improve
Security Planning for the Exchange Network, Report No. 09-P-0184, June 30, 2009
                            Report Excerpt                                           OIG Comment
Office of Environmental Information did not provide documentation to        The assigned staff needed
(1) support the existence of a training plan that meets federal policy or   different or additional skills.
guidance, and (2) confirm personnel have been trained on contingency
plan responsibilities and procedures within the last 2 years.
EPA Can Improve Managing of Working Capital Fund Overhead Costs, Report No. 09-P-0129,
March 30, 2009
                            Report Excerpt                                           OIG Comment
The Office of Technology Operations and Planning’s working capital          The number of staff assigned
fund staffing process was not fully documented. Office of Technology        was not correct.
Operations and Planning management allocates the number of FTEs to
working capital fund cost centers based on informal discussions
between service managers and working capital fund management
during its annual budget formulation process. . . . The staffing process
is an important element in the working capital fund’s control activities;
without maintaining documentation explaining the process, the
effectiveness of this control activity is reduced.

Cost accounting principles require that costs be allocated on a
reasonable and consistent basis. We identified three issues relating to
unreasonable allocation of working capital fund employee time.




11-P-0136                                                                                                     14
Improved Management of Superfund Special Accounts Will Make More Funds Available for
Clean-ups, Report No. 09-P-0119, March 18, 2009
                             Report Excerpt                                          OIG Comment
EPA’s special accounts management is fragmented among 4                     Responsibility was not properly
headquarters offices and 10 regional offices. Each of these offices has     assigned.
separate roles and responsibilities, and no one office or managing body
is centrally responsible for managing, overseeing, and coordinating
special accounts work for these various offices.

Headquarters managers believe the regional management of the
accounts, in addition to the multiple management guidance documents
issued by headquarters offices, is sufficient for managing EPA special
accounts. In the past, they questioned the need for a central
management structure. Though headquarters offices have jointly issued
special accounts guidance, none of the offices has taken the lead or
been designated as the central management official to ensure proper
management, oversight, and coordination of special accounts work by
headquarters and regional offices. Consequently, no single
headquarters entity is responsible for the management or oversight of
special accounts.
A Region 5 Penalty Reduction Was Unjustified and Undocumented, Report No. 08-P-0291,
September 29, 2008
                             Report Excerpt                                          OIG Comment
Staff’s analysis was never intended to establish Minnesota Metal            The assigned staff needed
Finishing Incorporated’s ability to pay. An ability-to-pay analysis is a    different or additional skills.
document prepared by a financial expert that determines a financial
range a company could pay over a period of time. Office of Regional
Counsel staff stated they are not qualified to conduct an ability-to-pay
analysis.
EPA Personnel Access and Security System Would Benefit from Improved Project Management to
Control Costs and the Timeliness of Deliverables, Report No. 08-P-0271, September 22, 2008
                             Report Excerpt                                          OIG Comment
The EPA Personnel Access and Security System needs a project                The assigned staff needed
manager with the skills, qualifications, and authority to oversee a high-   different or additional skills.
risk system development project. Security Management Division
assigned a project officer to oversee the contractors developing the
EPA Personnel Access and Security System. However, the project
officer’s main responsibility was to perform contract management
functions and the project officer does not possess the qualifications or
skills needed to manage system development activities for a high-risk
project like the EPA Personnel Access and Security System. The EPA
Personnel Access and Security System project officer was not familiar
with the Agency’s System Life Cycle Management requirements and, as
such, was not familiar with system development techniques or
processes to reduce the risk to the Agency for this high-risk project.




11-P-0136                                                                                                     15
                                                                                    Appendix B


               OIG-Identified Management Practices 

                Supporting Position Management 

Information Available to the Program and Regional Offices: OARM, working with OCFO,
recently increased the information readily available to the program and regional offices about
their staff. The information comes from PeoplePlus, which is EPA’s integrated human resource,
benefits, payroll, and time and labor system. With input from representatives of the program and
regional offices, the OARM OHR created various standard reports. These reports are periodically
sent directly to staff in the program and regional offices. In addition, with help from the OCFO,
OARM made PeoplePlus information available for ad hoc reports through the OCFO Reporting
and Business Intelligence Tool (ORBIT). Thus, those with access to sensitive ORBIT
information can create their own reports from PeoplePlus information.

Region 1 Position Management Program Components: Region 1 has a position management
program that includes an Organization and Staffing Plan for each Region 1 office, updated
monthly, that includes evaluating vacancies; a Critical Needs Database, which is a system to
track personnel actions needed and underway; and centralized approval of hiring actions.

Region 7 Position Management Program Components: Region 7 has a position management
program that includes a prioritized list of vacancies to be filled; documented weekly meetings of
the senior leadership team; and a spreadsheet to manage positions at the 14 or 15 grade level,
which require approval by the Assistant Regional Administrator to fill.

Region 10 Position Management Program Components: Region 10 has a position
management program that includes position management plans prepared biennially by each
Region 10 office, updated in the interim via a checklist, which includes information on possible
staffing changes; evaluation of each vacancy documented via a Strategic Hiring Request; and a
Placement of Bodies spreadsheet, matching employees to funding via program results codes.

Region 2 Information System: Region 2 maintains an information system for its approved
positions and vacancies.

Region 3 Panel: Region 3 has a panel, the Hiring Safeguards Position Review Panel, to review
requests for filling a vacancy, with a form to document its review.

Region 6 Information System: Region 6 maintains an information system used for succession
management that includes the skills of its employees.




11-P-0136                                                                                      16
                                                                                    Appendix C

                   Agency Response to Draft Report


                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                          DEC 30 2010
                                                                                     OFFICE OF

                                                                                   ADMINISTRATION

                                                                                   AND RESOURCES 

                                                                                    MANAGEMENT





MEMORANDUM

SUBJECT:	 EPA’s Comments on the Office of Inspector General’s (OIG) Draft Evaluation
          Report, Project No. OPE-FY10-0005, “EPA Needs Better Agency-Wide Controls
          Over Staff Resources”

FROM: 	        Craig E. Hooks
               Assistant Administrator

TO:    	       Elizabeth Grossman
               Deputy Assistant Inspector General for Program Evaluation
               Office of Inspector General

       I appreciate the opportunity to review and comment on the Office of Inspector
General’s (OIG) November 1, 2010 draft report entitled: “EPA Needs Better Controls Over
Staff Resources” (Project No. OPE-FY10-0005). The Office of Human Resources (OHR) has
reviewed the draft as well.

        The draft report's recommendation is that the Office of Administration and Resources
Management (OARM) establish an “…Agency-wide workforce program that includes controls to
ensure regular reviews of positions for efficiency, effectiveness, and mission accomplishment.”
EPA does maintain a budgeting and workforce management framework at the Agency and
program office and regional levels to deploy staff resources efficiently and effectively to achieve
EPA’s mission. This framework operates under the Agency's strategic plan and is translated into
the budget planning, management, and staff oversight functions performed across Agency
organizations and management levels. I believe that the Agency continues to strategically,
efficiently, and effectively manage its workforce through this EPA program office and regional
framework.



11-P-0136                                                                                       17
         Agency management works continuously to improve upon the framework as appropriate.
Specifically, the Agency recently refined its local level workforce planning process so that each
program and regional office could review the current status of their workforce data, assess
attrition/retirement rates across their respective office, and forecast future needs, particularly for
Mission Critical Occupations. An example of these updated, local level workforce plans
(LLWPs) was shared with the OIG. LLWPs play a significant role in terms of identifying future
staffing needs, driving the process for effective position management. The use of LLWPs in
conjunction with our current focus on a number of cross-organizational areas defined within the
Agency's strategic plan will serve to optimize staff efficiency and effectiveness. These new
advances in the Agency’s approach to workforce planning superseded the Agency’s Position
Management and Control Manual, finalized in 1982 and little used across Agency offices. In
contrast to the Manual, LLWPs and the actions to be taken under the Cross-Cutting Fundamental
Strategy "Strengthening EPA's Workforce and Capabilities," found within EPA’s Strategic Plan
for FY2011-15, will allow each office the flexibility to plan for their own unique, office-specific
position needs.

         In this regard, I have attached a copy of one of our LLWP templates, as well as the
relevant portion of the cross-cutting goals and action plans related to "Strengthening EPA's
Workforce and Capabilities." These goals and plans were endorsed by the Administrator's
Executive Management Council. In addition, the OHR policy division will be developing
guidance for program and regional offices documenting the key roles and responsibilities in the
position classification process. These three initiatives represent part of our regular and
continuing efforts to enhance the workforce budgeting and management framework referenced
earlier.

       Thank you for the opportunity to review and comment on this draft report. If you have
any questions or need additional information, please contact Kimberly A. Lewis, Director, Office
of Human Resources or Susan Kantrowitz, Deputy Director, OHR, at 202-564-4606.

Attachments




11-P-0136                                                                                           18
              2010 LOCAL LEVEL WORKFORCE PLAN 

                          OVERVIEW 

Workforce planning provides management with a way to align the workforce with a business
plan that will address current and future workforce issues. Workforce planning stems from the
Agency’s strategic plan and human capital goals and profoundly influences organizational
performance. Workforce planning helps the EPA better:

·    Project and respond to organization-wide staffing needs
·    Influence training, position management, and hiring goals
·    Deploy staff and organize work
·    Manage organizational culture, and
·    Anticipate and manage risk.

EPA’s strategic workforce planning model uses a four-step process.

       1.   Supply:

       Inventory of the current workforce demographics, onboard numbers of Mission Critical
       Occupation (MCO) positions, competency assessments, retirement trends, and retirement
       and attrition projections.

       2.   Demand:

       Identification of demand vulnerabilities required to achieve EPA’s mission and goals,
       now and in the future.

       3.   Gap Analysis:

       Comparison of supply data with demand assessments to determine where mission-critical
       gaps and surpluses exist now and where they will likely appear in the future.

       4.   Strategies and Solutions:

       Identification and implementation of a range of strategies and solutions (e.g., recruiting,
       training, re-training, restructuring, and competitive sourcing) to close identified gaps.




11-P-0136                                                                                        19
OFFICE OF SOLID WASTE & EMERGENCY RESPONSE 

                   ANALYSIS 


Step 1: Supply
This analysis provides an overview of the human resources supply profile as of March 31, 2010.
It includes details on the following staffing demographics: grade; the distribution of staff by
gender; the age profile, length of service; educational levels; and the distribution of the
workforce across the mission occupational categories. The analysis covers a period of eight plus
years from FY 2002 to the first half of FY 2010.

Table 1: EMPLOYEE PROFILE

Analysis: As of March 1, 2010
    OSWER has a total of 576 permanent employees currently, a decreasing trend over the
       past 5 years (Table 1).
    The average age has increased almost 2 years within the same time frame.
    This age trend is reflected in a significant reduction of employees 40-49 years old and an
       increase in employees 60+ in age.
    Additionally, the average length of service has increased.

The above trends are an indication of an aging workforce. Additionally, onboard employees are
staying longer within the federal service. These conclusions are reflected in the ever increasing
population of retirement eligible employees.

Other Indications:
      Gender, Ethnicity, Educational, and Leadership splits have basically remained constant
         within OSWER.
      OSWER’s workforce has changed little outside of age and retirement eligibility

Table 2A and 2B: ONBOARD DATA

Analysis: As of March 1, 2010

Mission Critical Occupations (MCOs) within OSWER.
    Decreasing numbers: Attorneys, Environmental/Mechanical Engineers, Health Scientists,
       and Leaders.
    Increasing numbers: Biologists, IT Specialists, and Physical Scientists.

The above data indicate a shift in projects and priorities. Your organization may want to examine
the reasons for these shifts and determine whether anticipated priorities will further impact the
above trends. It will be important to determine if these employment and hiring trends will
continue or if there will be a future shift in hiring demand.




11-P-0136                                                                                      20
     Table 3, 4A, and 4B: WORKFORCE AND MCO RETIREMENT ELIGBILITY DATA

     Analysis: As of March 1, 2010

            There are a total of 576 permanent employees, 20.8% are currently eligible to retire, an
             increase of 12.1% from 2002.
            Additionally, the number of employees eligible to retire within a 5-year period increases
             to 36.8% of the total workforce in 2015.
            Ten years from now in 2020, 55.4% of the workforce will be eligible for retirement.
            A majority of MCOs are showing retirement eligibility rates above the overall rate.
            Currently Attorneys, Chemists, Economists, Leaders, and Toxicologists have a high
             percentage of retirement eligibility.

     The above suggests OSWER has current Knowledge Management, Succession Management, and
     Skills Retention issues within these specific occupational groups.


     Table 5 and 6: PROJECTED RETIREMENT AND ATTRITION DATA

     Retirement eligibility is a good measure for understanding the workforce requirements of your
     program/office. However actual retirements or projected retirements provide a more accurate
     forecast of your workforce needs. Historical EPA data were used to create a retirement
     projection model.

     Analysis: Retirement Projection Model
         Retirement eligibility will remain around 100 employees, with approximately 22
            employees projected to retire every year.
         An additional 15 employees are projected to leave per year based on resignations, federal
            transfers, deaths and terminations.

     Projected annual attrition:

       Year           2005    2006   2007    2008   2009    2010    2011    2012   2013    2014    2015   2016
   Actual Hires        48      22     19      15     20       3
 Actual Attrition      30      33     26      43     21       5
Projected Attrition                                          37      36      38      38     37      36    35

     Other indications:
           Current economic situation may show projections for retirement, transfer, and
             resignations are high due to a tighter job market and unfavorable retirement conditions.




     11-P-0136                                                                                       21
   SURVEY OF WORKFORCE DEMAND, GAP ANALYSIS 

           AND STRATEGIES/SOLUTIONS


STEP 2: Demand – Local Progress and Plans
1. Is the scope of work within your office changing?           Yes    No

a. How is the scope of work changing?

   Legislative Change                                  Business Reorganization
   New/ Change in Agency Performance Standard          Other (please list)
    
    
    
    


b. How is the nature of the work changing?

   New projects                  More projects                 Fewer projects
   More complexity               Less complexity               Other (please list)
    
    
    
    


2. How are your employees staffing level and skill level needs affected by the change in
workload?

   Increased Staffing            Decreased Staffing            Other Staffing Change
   Higher Skill Level Need       Different Skill Set Need      More Technical
   More Administrative           Less Administrative           Less Technical

a. Are there new positions?

   Increased FTE         Fewer FTE              Same




11-P-0136                                                                                  22
b. Are there any reprogramming of positions?

   Attorneys                      Biologists                   Chemists
   Contract Specialists           Economists                   EPA Leaders
   Grant Specialists              Health Scientists            Human Resources Specialists
   IT Specialists                 Physical Scientists          Toxicologist
   Other (please list)
     
     
     
     


c. What is your general assessment of the appropriateness of your existing skill mix given the
current workload?

   Good                           Fair                  Poor

d. Are different skills sets needed?                    Yes    No

e. What skills are needed?
     
     
     
     


f. For FY 2010, what occupations and how many projected hires are there?
      
      
      
      
      
      
      


g. In what job categories are the hires?

   Attorneys                      Biologists                   Chemists
   Contract Specialists           Economists                   EPA Leaders
   Grant Specialists              Health Scientists            Human Resources Specialists
   IT Specialists                 Physical Scientists          Toxicologist
   Other (please list)
     
     
     
     





11-P-0136                                                                                        23
  STEP 3: Gap Analysis – Local Progress and Plans:
1. Are there any variables to your specific office for retirement and attrition?

2. Are there any hard to fill positions?                    Yes     No

   Administrative                    Clerical                       MCO
   Scientific                        Engineering                    Other (please list)
     
     
     


a. Are there specific occupational series that are hard to fill or retain? Please list.
      
      
      
      


b. Why are positions hard to fill?

   Labor Supply Shortage                           Revenue Shortfalls /Budget Cuts
   High Experience Need                            High Skill Needs
   Competition                                     Hiring Process
   Other (please list)
    
    
    
    


STEP 4: Strategies and Solutions – Local Progress and Plans:
Describe any completed, ongoing, and future strategies to close workforce MCO position gaps
and/or competency gaps for current and future mission needs.

   Competency Assessment             Knowledge Management           Local Level Workforce Planning
   Recruitment Strategies            Succession Planning            Business Continuity Planning
   Mentoring                         Affirmative Action             Retention Incentive/Programs
   Training & Development            Workplace Culture              Employee Health & Wellness
   Career Balance                    Other (please list)

      
      
      





11-P-0136                                                                                       24
                         FY 2011-2015 EPA Strategic Plan 

 Cross-Cutting Fundamental Strategy: Strengthening EPA's Workforce and Capabilities 


Continuously improve EPA’s internal management, encourage innovation and creativity
in all aspects of our work, and ensure that EPA is an excellent workplace that attracts
and retains a topnotch, diverse workforce, positioned to meet and address the
environmental challenges of the 21st century.

Achieving positive environmental and human health outcomes through cleaner and safer air,
water, and land, and through protection of our natural resources is the focal point of all our work
at EPA. This compelling mission attracts workers eager to make a difference and drives
employees across the Agency to work together. EPA fully supports the Administration’s efforts
to reform the federal government’s hiring system to ensure highly qualified individuals are
available to strengthen EPA’s workforce. EPA believes these reforms will improve the Agency’s
ability to protect human health and the environment more effectively and efficiently.

EPA is a complex organization. This is both an asset and a challenge. To achieve its mission,
EPA is continuously building and nurturing a skilled workforce, finding new ways to use the
power of information, working together through enhanced communication, and demanding
transparency and accountability at all levels. With innovative and creative management and a
talented, diverse, and highly motivated workforce, EPA will be positioned to meet head-on the
complex environmental challenges of the present and future.

To achieve this goal, EPA will:

1. 	 Recruit, develop, and retain a diverse and creative workforce, equipped with the technical
     skill and knowledge needed to accomplish the Agency’s mission and to meet evolving
     environmental challenges.

2. 	 Cultivate a workplace that values a high quality work life, provides employee-friendly policies
     and facilities, and invests in the information infrastructure, technology, and security essential
     to support a mobile workforce.

3. 	 Practice outstanding resource stewardship to ensure that all Agency programs operate with
     fiscal responsibility and management integrity, are efficiently and consistently delivered
     nationwide, and demonstrate results.

4. 	 Take advantage of existing and emerging tools to improve and enhance communication,
     transparency, and accountability.

5. 	 Integrate energy efficiency and environmental considerations into our work practices as core
     components of Agency business models and operations.




11-P-0136                                                                                          25
6. 	 Improve the effectiveness and efficiency of the Agency’s acquisition function by
     strengthening requirements development, contract management, and internal review
     practices; maximizing the use of competition in contracting, reducing high-risk contracts;
     improving how contracts are structured; building the skills of the acquisition workforce; and
     improving management of the EPA acquisition workforce.

            FY 2011 Action Plan: Strengthening EPA's Workforce and Capabilities

This Action Plan lists the specific actions that EPA will carry out in FY 2011 to achieve the goals
of the Strategy for Strengthening EPA's Workforce and Capabilities as described in the FY
2011-2015 EPA Strategic Plan. Annual Action Plans will be developed for each year of the
Strategic Plan.

1. 	 Reform EPA’s hiring process to make it easier for applicants to apply for jobs, increase the
     pool of qualified candidates, and reduce hiring time. New hires report increased satisfaction
     with the hiring process, and EPA hiring officials report increased satisfaction with the quality
     and number of candidates referred for consideration (Supports Principle 1).
      Convene cross-Agency taskforce to provide advice regarding performance of EPA’s
         Human Resources Shared Service Centers (by November 2010).
      Complete standardized recruitment packages for 10 occupations for customer use (by
         December 2010).

2. 	 Attract a diverse pool of applicants for EPA jobs, including increased representation from
     minority, veteran, women, and disabled populations (Supports Principle 1).
      Launch the Diversity Dashboard, an internal database capable of providing snapshots of
         EPA employment data (by December 2010).
     	 Conduct training for hiring officials in all EPA regions and program offices on targeted
         outreach strategies and the use of social media tools to attract qualified, diverse
         applicants (by March 2011).

3. 	 Enhance the capability of telework-eligible EPA employees to work remotely and increase
     the number of EPA employees who telework and/or the number of hours teleworked by 10
     percent (Supports Principle 2).
      Use results from the EPA Telework Study (includes regional approaches, best practices,
         and technology options) to inform the EPA policy approach to telework (by December
         2010).
      Train 100 percent of managers and supervisors in the training course, “Telework: A
         Manager’s Perspective” (by March 2011).
     	 Launch the enhanced Employee Portal to support employee remote access to specific
         EPA applications and systems. Track usage to build baseline data for measuring usage
         rates in future years (by April 2011).

4. 	 Improve the on-boarding experience for new hires, expand opportunities for management
     and staff for ongoing development, and foster increased collaboration as One EPA
     (Supports Principles 1 and 2).
      Identify and implement on-boarding “best practices,” including integration of technologies
        such as social networking. Achieve improved employee satisfaction scores on the FY
        2011 federal Employee Viewpoint Survey (EVS).




11-P-0136                                                                                          26
   	 Investigate and prepare options for expanding the Leadership Development and
      Professional Rotational Program to include potential rotations/details to employees in the
      “professional-technical” career track (by March 2011).

5. 	 Practice outstanding resource stewardship and ensure maximum use of Agency funds by
     reducing unliquidated obligations in expired grants and contracts. Reduce unliquidated
     obligations in expired grants by 15 percent and in expired contracts by 20 percent by the
     end of FY 2011 (Supports Principle 3).
      Review 100 percent of unliquidated obligations recorded on or before March 31, 2011 by
         June 30, 2011 or per EPA guidance.

6. 	 Utilize existing and emerging tools to support the President’s focus on Open Government
     and provide a way for the diverse community of scientists, researchers, and professionals to
     connect, communicate, and share ideas (Supports Principle 4).
      Launch EPA’s internal professional networking and collaboration site for EPA employees
          (by September 2011).

7. 	 Increase use of Green Conferencing and Green Meeting practices (Supports Principle 5).
     	 Measure the use of video conference equipment to establish an FY 2011 baseline
         against which to track future usage (by September 2011).




11-P-0136                                                                                     27
                                                                                Appendix D

                                   Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Audit Followup Coordinator, Office of Administration and Resources Management




11-P-0136                                                                               28
